September 26, 2002

TALMADGE M. MIDDLETON
SENIOR PLANT MANAGER
 DENVER GENERAL MAIL FACILITY

GEORGE A. BOETTGER
MANAGER, COLORADO WYOMING DISTRICT

SUBJECT:     Audit Report - Work Performed by Business Mail Entry Employees in the
             Colorado Wyoming Performance Cluster
             (Report Number CQ-AR-02-001)

This report presents the results of our audit of the appropriateness of work performed by
business mail entry employees at the Denver Bulk Mail Center and the Denver General
Mail Facility (Project Number 02BO008CQ000). This self-initiated review was
conducted in response to observations made during recurring financial installation
audits by the Office of Inspector General (OIG).

Our review disclosed that many business mail entry employees currently working at the
two facilities were not needed to accept business mailings. We recommended that
management oversee the consolidation of business mail entry operations and reduce
staff as planned, and revaluate staffing to determine if further staff reductions are
necessary. Management agreed with our recommendations and has initiatives in
progress, completed, or planned addressing the issues identified in this report.
Management’s comments and our evaluation of these comments are included in the
report.

The OIG considers recommendations 1 and 2 significant and, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action(s) are completed. These recommendations should not be closed in
the follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact Kim H. Stroud,
director, Audit Operations and Quick Response, at (703) 248-2100 or me at (703)
248-2300.



Robert L. Emmons
Acting Assistant Inspector General
 for Audit

Attachment

cc: Patrick R. Donahue
    Sylvester Black
    Susan M. Duchek
    Steven J. Juhl
    Ruth E. Brooks
Work Performed by Business Mail Entry Employees                         CQ-AR-02-001
 in the Colorado Wyoming Performance Cluster



                          TABLE OF CONTENTS

 Executive Summary                                                       i

 Introduction                                                            1

    Background                                                           1
    Objectives, Scope, and Methodology                                   1
    Prior Audit Coverage                                                 2

 Audit Results                                                           3

    Employee Workhours are Excessive                                     3
       Business Mail Entry Technicians Performing Work of Dock           3
         Personnel
       Business Mail Entry Technicians' Remaining Workload is Minimal    4
       Consolidation of Business Mail Entry Units                        4
       Reevaluation of Staffing Levels to Improve Productivity           4
    Management’s Actions                                                 5
    Recommendations                                                      6
    Management’s Comments                                                6
    Evaluation of Management’s Comments                                  6

 Appendix A. FY 2001 Revenue Per Workhour for Selected Western           7
             Area Business Mail Entry Sites
 Appendix B. FY 2001 Mailings Per Workhour for Selected Western          8
             Area Business Mail Entry Sites
 Appendix C. FY 2001 Revenue Per Workhour for Nationally                 9
             Comparable Business Mail Entry Units
 Appendix D. FY 2001 Mailings Per Workhour for Nationally Comparable    10
             Business Mail Entry Units
 Appendix E. FY 2001 Mailings Per Workhour for a Reduced                11
             Complement Denver Business Mail Entry Unit and Several
             Nationally Comparable Sites (Denver Complement
             Reduced to 30 Employees)
 Appendix F. FY 2001 Revenue Per Workhour for a Reduced                 12
             Complement Denver Business Mail Entry Unit and Several
             Nationally Comparable Sites (Denver Complement
             Reduced to 30 Employees)
 Appendix G. Annual Savings Forecast                                    13
 Appendix H. Management’s Comments                                      14
Work Performed by Business Mail Entry Employees                                                                     CQ-AR-02-001
 in the Colorado Wyoming Performance Cluster



                                            EXECUTIVE SUMMARY
    Introduction                        The Office of Inspector General (OIG) conducted a
                                        review of the appropriateness of work performed by
                                        business mail entry employees at the Denver Bulk Mail
                                        Center and the Denver General Mail Facility (Project
                                        Number 02BO008CQ000). Both of the facilities are located
                                        in the Colorado Wyoming Performance Cluster. This self-
                                        initiated review was conducted in response to observations
                                        made during recurring financial installation audits by the
                                        OIG.

    Results in Brief                    Our review disclosed that many business mail entry
                                        employees currently working at the two facilities were not
                                        needed to accept business mailings.1 Based on
                                        benchmarking averages, we determined that a reduction of
                                        16 - 22 employees could save over $1 million a year and
                                        bring the Colorado Wyoming Performance Cluster within
                                        averages for nationally comparable sites for employee
                                        complement, as well as mailings and revenue per workhour.

                                        Excessive workhours were assigned to business mail entry
                                        units because:

                                             1. Business mail entry technicians at the Denver Bulk
                                                Mail Center accomplished duties that should have
                                                been accomplished by dock personnel and their
                                                remaining workload is minimal.

                                             2. Managers did not consider consolidating business
                                                mail entry units that were less than a mile apart.

                                             3. Managers did not periodically reevaluate staffing
                                                levels to improve productivity.

                                        During the audit, local managers initiated an aggressive
                                        plan to consolidate business mail entry operations and
                                        reduce employee complements. Because there are other
                                        opportunities to improve productivity at other locations, we
                                        plan to expand our work to other business mail entry units in
                                        the Western Area.


1
  A mailing is a unique event whereby the customer has prepared similar pieces of mail in accordance with the criteria set forth in
the Domestic Mail Manual.




                                                                  i
Work Performed by Business Mail Entry Employees                                   CQ-AR-02-001
 in the Colorado Wyoming Performance Cluster




 Summary of                   We recommended management oversee the consolidation
 Recommendations              of business mail entry operations and reduce staff as
                              planned, reevaluate staffing after the consolidation transition
                              period to consider reducing additional business mail entry
                              staff, and reevaluate staffing periodically to determine if
                              further reductions are necessary based on changes in
                              workload and revenue.

 Summary of                  Management agreed with our findings, recommendations,
 Management’s                and forecasted savings. They are in the process of
 Comments                    consolidating business mail entry unit functions at the
                             Denver Bulk Mail Center into the unit located at the Denver
                             General Mail Facility and plan to re-evaluate staffing again
                             next year based on the outcome of an annual staffing
                             survey. Management’s comments, in their entirety, are
                             included in Appendix H of this report.

 Overall Evaluation of       In the OIG’s opinion, management’s actions, taken or
 Management’s                planned, should correct the problem or resolve the issues
 Comments                    identified in the report.




                                                  ii
Work Performed by Business Mail Entry Employees                                 CQ-AR-02-001
 in the Colorado Wyoming Performance Cluster



                                      INTRODUCTION
   Background                 Business mail entry units are located in Postal Service
                              facilities nationwide. Business mail entry technicians
                              receive business mailers' bulk, presorted, and permit mail
                              for acceptance. Business mail entry technicians accept
                              business mail using dedicated platform space, office space,
                              and a staging area on the workroom floor. A business mail
                              entry technician, using prescribed acceptance procedures,
                              typically performs mailing verifications. Verification
                              procedures include verifying fees and funds on deposit,
                              reviewing contents of mailpieces, checking of labels and
                              mail make up, and completing postage verification. Work
                              activity associated with platform acceptance, presort
                              verification, and mail entry is captured in the Management
                              Operating Data System.

                              Between fiscal years (FY) 1999 and 2001, revenues for
                              business mail entry units located in the two facilities we
                              reviewed declined 3 percent from approximately
                              $129 million to $125 million. In addition, mailings decreased
                              2.34 percent from 89,801 to 87,701. However, workhours
                              increased 1.2 percent from 81,349 to 82,326.

   Objectives, Scope,         To assess the appropriateness of business mail entry
   and Methodology            technicians’ work, we made observations of business mail
                              entry staff, conducted interviews, and compared work
                              activities to policies and procedures.

                              To assess the appropriateness of employee complements,
                              we benchmarked revenues and mailings per workhour to
                              other business mail entry units located in the same area,
                              with similar amounts of revenue and mailings. We also
                              benchmarked the data against Postal Service facilities
                              located nationally.

                              We relied on Postal Service operational systems to perform
                              our analysis of revenue, mailings, and workhours. We did
                              not test the validity of controls over these systems.

                              This review was conducted from July through
                              September 2002 in accordance with generally accepted
                              government auditing standards, and included such tests of
                              internal controls as were considered necessary under the




                                                  1
Work Performed by Business Mail Entry Employees                                  CQ-AR-02-001
 in the Colorado Wyoming Performance Cluster



                              circumstances. We discussed our conclusions and
                              observations with appropriate management officials and
                              included their comments, where appropriate.

   Prior Audit                We did not identify any prior reviews related to the
   Coverage                   objectives of this audit.




                                                  2
Work Performed by Business Mail Entry Employees                                                       CQ-AR-02-001
 in the Colorado Wyoming Performance Cluster




                                              AUDIT RESULTS
    Employee Workhours Excessive workhours were assigned to business mail entry
    are Excessive      units because:

                                       •    Business mail entry technicians accomplished duties
                                            that should have been accomplished by dock
                                            personnel.

                                       •    Remaining workload is minimal.

                                       •    Managers did not consider consolidating business
                                            mail entry units that were less than a mile apart.

                                       •    Managers did not periodically reevaluate staffing
                                            levels to improve productivity.

    Business Mail Entry            Although Postal Service policies state that dock personnel
    Technicians                    should perform acceptance activities, business mail entry
    Performing Work of             technicians currently accept plant-verified drop shipments at
    Dock Personnel                 the Denver Bulk Mail Center. This activity constituted the
                                   vast majority of the business mail entry technicians
                                   workload. Business mail entry technicians were assigned
                                   the responsibility of accepting plant-verified drop shipments
                                   since there was insufficient workload.

                                   A plant-verified drop shipment is a procedure that enables a
                                   mailer to pay postage and have mailings verified at its origin
                                   office and then to enter the mailings at a destination office
                                   using shipper-paid transportation. Plant-verified drop
                                   shipments are accounted for using the Postal Service
                                   (PS) Form 8125, Plant-Verified Drop Shipment Verification
                                   and Clearance, and are normally accepted by dock
                                   personnel. According to Postal Service policies,2 dock
                                   personnel at the destination office such as, the business
                                   mail entry unit at the Denver Bulk Mail Center, need only
                                   compare information on the PS Form 8125 to the actual mail
                                   and does not entail the level of detail required for mail
                                   acceptance because the mail has already been verified.
                                   Therefore, we believe this work should be assigned to dock
                                   personnel as required by Postal Service policies.

2
 Publication 804, Drop Shipment Procedures for Destination Facility, Section 5-5, Destination Entry Office
Acceptance, Part d and Chapter 6.




                                                          3
Work Performed by Business Mail Entry Employees                                                   CQ-AR-02-001
 in the Colorado Wyoming Performance Cluster




    Business Mail Entry          We also noted if business mail entry technicians’ no longer
    Technicians'                 performed acceptance activities of plant-verified drop
    Remaining Workload is        shipments, their remaining workload would be minimal. On
    Minimal                      average, the business mail entry unit at the Denver Bulk
                                 Mail Center has approximately six mailings per week
                                 performed by 14 employees, or .43 mailings per employee.
                                 We believe the volume of remaining business mail as
                                 observed during our visits does not appear to support
                                 current staffing levels.

    Consolidation of             Managers did not consider consolidating business mail entry
    Business Mail Entry          units that were closely located though intended workload at
    Units                        the bulk mail center was minimal. Currently, the Denver
                                 Bulk Mail Center and Denver General Mail Facility both
                                 maintain business mail entry units that are located
                                 approximately seven-tenths of a mile from each other. We
                                 believe that consolidating the business mail entry unit
                                 operations for these two facilities would result in cost
                                 savings and improve productivity.

    Reevaluation of               Although Postal Service policies3 require that business mail
    Staffing Levels to            entry units ensure the efficient use of workhours, managers
    Improve Productivity          did not periodically reevaluate staffing levels to improve
                                  productivity.4 When FY 2001 revenue, mailings, and
                                  workhours for the two facilities were compared to business
                                  mail entry units with similar size revenue in the Western
                                  Area (see Appendices A and B) we noted that:

                                  •   Revenue per workhour was less than a third the
                                      average of other business mail entry units.

                                  •   Mailings per workhour were almost two-thirds the
                                      average of other business mail entry units.

                                  •   Business mail entry operations ranked last in revenue
                                      and mailings per workhour.




3
 Domestic Mail Manual 109.
4
 Productivity measured in terms of mailing per hour and revenue per hour—national measures for business mail
entry unit operations. Averages used for representative benchmarks.




                                                       4
Work Performed by Business Mail Entry Employees                                   CQ-AR-02-001
 in the Colorado Wyoming Performance Cluster




                              Our comparisons of 2001 revenues, mailings, and
                              workhours at business mail entry units with similar size
                              revenue in the nation (see Appendices C and D) revealed
                              that:

                              •   Revenue per workhour was about half the average of
                                  other business mail entry units.

                              •   The business mail entry operations at the two facilities
                                  we reviewed ranked last in revenue per workhour.

                              •   Mailings per workhour were two-thirds the average of
                                  other business mail entry units.

                              •   The facilities we reviewed ranked second to last in
                                  mailings per workhour.

                              To bring the Denver business mail entry operations within
                              benchmarked averages, an employee complement ranging
                              from 24 to 30 personnel would be needed rather than the
                              current complement of 46 employees. Downsizing the
                              Denver business mail entry staff to a complement of
                              30 would bring the unit within the national average for
                              mailings. However, we believe further opportunities exist
                              to improve revenue measures with a reduced complement
                              of 30 employees. (See Appendices E and F.)

 Management's                 During our review, local managers initiated a plan to
 Actions                      consolidate business mail entry operations and reduce its
                              employee complements. Specifically, local managers
                              planned to:

                                  •   Discontinue acceptance of PS Form 8125 mail by
                                      business mail entry technicians.

                                  •   Reduce the positions of eight business mail entry
                                      technicians and one manager during a transitional
                                      period.

                                  •   Reassess workhour requirements within a year to
                                      further reduce staff.




                                                  5
Work Performed by Business Mail Entry Employees                                CQ-AR-02-001
 in the Colorado Wyoming Performance Cluster




                             The results of these actions will result in annual savings of
                             approximately $1 million, if fully implemented. Appendix G
                             contains our detailed calculations. We found management's
                             preliminary actions responsive to our findings.

 Recommendations             We recommend the senior plant manager, Denver General
                             Mail Facility, in conjunction with the Colorado Wyoming
                             district manager:

                             1. Oversee the consolidation of business mail entry
                                operations and reduce staff as planned.

                             2. Reevaluate staffing after the consolidation transition
                                period to consider reducing business mail entry staff by
                                another eight positions.

                             3. Reevaluate staffing periodically to determine if further
                                reductions are necessary based on changes in workload
                                and revenue.

 Management’s                Management agreed with our findings and
 Comments                    recommendations. They are in the process of consolidating
                             business mail entry unit functions at the Denver Bulk Mail
                             Center into the unit located at the Denver General Mail
                             Facility and plan to re-evaluate staffing again next year
                             based on the outcome of an annual staffing survey.

                             Management also agreed with the annual savings
                             forecasted based on its intent to excess 12 business mail
                             technicians at the Denver Bulk Mail Center and offer 4 new
                             positions at the unit located at the general mail facility.
                             Management further plans to equitably transfer 1 manager
                             and readdress questioned costs after its annual staffing
                             survey.

 Evaluation of               In the OIG’s opinion, management’s actions, taken or
 Management’s                planned, should correct the problem or resolve the issues
 Comments                    identified in the report.




                                                  6
Work Performed by Business Mail Entry Employees                                                    CQ-AR-02-001
 in the Colorado Wyoming Performance Cluster




                          APPENDIX A
     FY 2001 REVENUE PER WORKHOUR FOR SELECTED WESTERN
                AREA* BUSINESS MAIL ENTRY SITES

                                                            $1,513

                                     $2,324
                                                                                                          Omaha, NE
                    $2,455

                                                                                          $8,874
                                                                                                          Lincoln, NE
        $2,752

                                                                                                          Waite Park,
                                                                                                          MN

                                                                                                          Las Vegas,
                                                                                                          NV

                                                                                                          Minneapolis,
                                                                                                          MN
   $5,917

                                                                                                          Seattle, WA


                                                                                                          Phoenix, AZ
                                                                                        $8,623

                                                                                                          Colo/Wyo
                              $6,432



  Average Revenue Per Workhour Excluding Colo/Wyo = $5,339
  *Districts that were part of Western Area in July 2002.

  *Colorado Wyoming Business Mail Entry Unit includes the combined Denver Bulk Mail Center and Denver General Mail Facility
  employees, revenue, and mailings.


Comparative sites were selected based on FY 2000 revenue greater than $100 million. Maple Grove,
Minnesota, and Northland District, was excluded because of extremely low personnel requirements relative
to workload. Does not include in-depth analysis of individual mailings at locations involved.




                                                             7
Work Performed by Business Mail Entry Employees                                                         CQ-AR-02-001
 in the Colorado Wyoming Performance Cluster



                           APPENDIX B
     FY 2001 MAILINGS PER WORKHOUR FOR SELECTED WESTERN
                AREA* BUSINESS MAIL ENTRY SITES



                                                               1.02                                        Las Vegas, NV

                                   1.23

                                                                                                           Seattle, WA
                 1.30

                                                                                  2.58
                                                                                                           Waite Park, MN



          1.33
                                                                                                           Lincoln, NE




                                                                                                           Phoenix , AZ
                   1.55                                                      1.83


                                               1.70                                                        Minneapolis, MN

 Average Mailings Per Workhour Excluding Colo/Wyo= 1.64

 Districts that were part of Western Area in July 2002.                                                    Omaha, NE

 *Colorado Wyoming Business Mail Entry Unit includes the combined Denver Bulk Mail Center
 and Denver General Mail Facility employees, revenue, and mailings.

                                                                                                           Colo/Wyo




Comparative sites were selected based on FY 2000 revenue greater than $100 million. Maple Grove, Minnesota, and
Northland District, was excluded because of extremely low personnel requirements relative to workload. Does not include
in-depth analysis of individual mailings at locations involved.




                                                           8
Work Performed by Business Mail Entry Employees                                                      CQ-AR-02-001
 in the Colorado Wyoming Performance Cluster




                             APPENDIX C
           FY 2001 REVENUE PER WORKHOUR FOR NATIONALLY
               COMPARABLE BUSINESS MAIL ENTRY UNITS




                                            $2,324                         $1,513

                                                                                                        Las Vegas, NV
                $2,404

                                                                                                        Richmond, VA


                                                                                          $5,917
                                                                                                        Pittsburg, PA

    $2,442
                                                                                                        Seattle, WA



                                                                                                        San Diego, CA



                                                                                                        Southern MD

         $2,455
                                                                                                        Phoenix, AZ



                              $2,465                                  $2,551                            Colo/Wyo

  Average Revenue Per Workhour Excluding Colo/Wyo = $2,937
  Colorado Wyoming Business Mail Entry Unit includes the combined Denver Bulk Mail Center and Denver General Mail
  Facility employees, revenue, and mailings.




Comparative sites were selected based on FY 2000 revenue between $117 million and $160 million, excluding
sites that reported no workhours in the National Workhour Reporting System. Does not include in-depth
analysis of individual mailings at locations involved.




                                                         9
Work Performed by Business Mail Entry Employees                                            CQ-AR-02-001
 in the Colorado Wyoming Performance Cluster




                             APPENDIX D
          FY 2001 MAILINGS PER WORKHOUR FOR NATIONALLY
              COMPARABLE BUSINESS MAIL ENTRY UNITS

                          1.02                                                                  Las Vegas, NV
                                                   0.89

                                                                                                Seattle, WA

             1.29
                                                                                2.58
                                                                                                San Diego, CA



                                                                                                Richmond, VA



      1.33                                                                                      Phoenix, AZ



                                                                                                Pittsburg, PA
                                                                                1.83

                 1.57                                                                           Colo/Wyo.


                                                  1.77
                                                                                                Southern MD

 Average Mailings Per Workhour Excluding Colo/Wyo = 1.61

 *Colorado Wyoming Business Mail Entry Unit includes the combined Denver Bulk Mail Center and
 Denver General Mail Facility employees, revenue, and mailings.



 These are FY 2001 mailings corresponding to the sites selected in Appendix C. Does not include in-depth
analysis of individual mailings at locations involved.




                                                   10
Work Performed by Business Mail Entry Employees                                                           CQ-AR-02-001
 in the Colorado Wyoming Performance Cluster




                       APPENDIX E
     FY 2001 MAILINGS PER WORKHOUR FOR A REDUCED
COMPLEMENT DENVER BUSINESS MAIL ENTRY UNIT AND SEVERAL
   NATIONALLY COMPARABLE SITES (DENVER COMPLEMENT
               REDUCED TO 30 EMPLOYEES)

               3.00
                                                                                                      2.58

               2.50

                                                                                                                  1.83
               2.00
                                                      1.77
                                         1.61
                                                                  1.57         1.29
                             1.33
               1.50
                                                                                          0.89

               1.00


               0.50


               0.00
                       AZ




                                                A




                                                V
                                                A


                                                D
                                              VA
                                               yo




                                                A
                                             ,C




                                             ,P




                                              N


                                           ,W
                                              M
                                            W
                     x,




                                           d,




                                           s,
                                          rn
                                          rg
                                         go
                                          o/




                                        tle
                   ni




                                       ga
                                       on




                                      he
                                     bu
                                       ol


                                      ie
                 oe




                                     at
                                   Ve
                                  hm
                                    C




                                   ut
                                   D




                                  tts




                                Se
              Ph




                              So
                                n




                              Pi
                               ic




                                s
                             Sa




                             La
                             R




  Average Mailings Per Workhour Excluding Colo/Wyo = 1.61
  *Colorado Wyoming Business Mail Entry Unit includes the combined Denver Bulk Mail Center and Denver General Mail
  Facility employees, revenue, and mailings.




Sites for comparison as selected in Appendix C. Does not include in-depth analysis of individual mailings at locations
involved.




                                                            11
Work Performed by Business Mail Entry Employees                                                                                         CQ-AR-02-001
 in the Colorado Wyoming Performance Cluster




                      APPENDIX F
     FY 2001 REVENUE PER WORKHOUR FOR A REDUCED
COMPLEMENT DENVER BUSINESS MAIL ENTRY UNIT AND SEVERAL
   NATIONALLY COMPARABLE SITES (DENVER COMPLEMENT
               REDUCED TO 30 EMPLOYEES)




                                                                                                                  $2,455
                                                                                                                                                 $5,917
                                                                                  A
                                                                                ,W
                                                                             tle
                                                                          at
                                                                       Se


                                                                        V
                                                                      ,N




                                                                                                                 $2,404
                                                                    s
                                                                  ga
                                                                Ve

                                                                D
                                                              M
                                                              s




                                                                                                                 $2,465
                                                           La


                                                            n
                                                        her
                                                     ut

                                                    A
                                                  So

                                                 ,P




                                                                                                                      $2,551
                                                g
                                             bur
                                          ts

                                        A
                                        t

                                    ,V
                                     Pi




                                                                                                                  $2,442
                                  d
                               on
                             m

                            A
                            h




                                                                                                                 $2,396
                        ,C
                         ic
                       R

                      o
                  i eg
                D

              yo




                                                                                                             $2,324
      n

             W
   Sa

          o/
       ol
      C

     Z
   ,A                    x




                                                                                      $0   $1,000   $2,000       $3,000        $4,000   $5,000         $6,000
                      ni
                   oe
                Ph




                                    Average Revenue Per Workhour Excluding Colo/Wyo = $2,937



*Colorado Wyoming Business Mail Entry Unit includes the combined Denver Bulk Mail Center and Denver General Mail
Facility employees, revenue, and mailings. Sites for comparison as selected in Appendix C. Does not include in-depth
analysis of individual mailings at locations involved.




                                                                                                        12
Work Performed by Business Mail Entry Employees                                          CQ-AR-02-001
 in the Colorado Wyoming Performance Cluster




                 APPENDIX G. ANNUAL SAVINGS FORECAST

Benefits of reducing complements:

Number Employees       Hours/Yr     Rate/Hr     Amount per Year        Amount per Year    Combined
                       FY 2001      FY 2001
                                                 FUNDS PUT TO            QUESTIONED
                                                  BETTER USE               COSTS
   8 PS-06 Craft         1,774      $35.15          $498,849
     1 EAS-20*           1,755      $46.80           $82,134
  8 PS-06 Craft **       1,774      $35.15                                  $498,849
Grand Totals/YR                                      $580,983               $498,849      $1,079,832

   FUNDS PUT TO BETTER USE -- Funds that can be used more efficiently by implementing
   recommended actions.

   QUESTIONED COSTS – A cost that is unnecessary, unreasonable, or unsupported.


   *Executive and administrative schedule.

   **We classified the cost of maintaining eight employees during a transitional period as an
   unsupported cost since workhours did not correspond with workload requirements as compared to
   similar business mail entry units.

   Does not include in-depth analysis of individual mailings at locations involved.




                                                    13
Work Performed by Business Mail Entry Employees        CQ-AR-02-001
 in the Colorado Wyoming Performance Cluster



                  APPENDIX H. MANAGEMENT’S COMMENTS




                                                  14
Work Performed by Business Mail Entry Employees        CQ-AR-02-001
 in the Colorado Wyoming Performance Cluster




                                                  15
Work Performed by Business Mail Entry Employees        CQ-AR-02-001
 in the Colorado Wyoming Performance Cluster




                                                  16
